No. ___________________
__________________________________________________________________
IN THE
SUPREME COURT OF THE UNITED STATES
ROBERT RONALD PERALES
Petitioner
v.
THE STATE OF TEXAS
Respondent
ON PETITION FOR A WRIT OF CERTIORARI
TO THE COURT OF APPEALS OF TEXAS, FOURTEENTH DISTRICT

PETITION FOR A WRIT OF CERTIORARI

ALEXANDER BUNIN
Chief Public Defender
Harris County, Texas
THEODORE LEE WOOD*
Assistant Public Defender
Harris County, Texas
TBN 21907800
1201 Franklin, 13th Floor
Houston, Texas 77002
Phone: (713) 274-6705
ted.wood@pdo.hctx.net
*Counsel of Record
Attorneys for Petitioner
Robert Ronald Perales
1

QUESTION PRESENTED
Outrageous government conduct exists when the actions of law
enforcement are shocking to the universal sense of justice. Outrageous
government conduct is a due process violation that bars the government
from invoking judicial process to obtain a conviction. Here, police created
an online persona with an intentionally ambiguous age and then arrested
a man for child solicitation when he flirted with the persona. Did these
police actions constitute outrageous government conduct?

2

PARTIES TO THE PROCEEDINGS

PETITIONER:

Robert Ronald Perales

ATTORNEYS FOR PETITIONER:

ALEX BUNIN
Chief Public Defender
Harris County, Texas
THEODORE LEE WOOD
Assistant Public Defender
Harris County, Texas
1201 Franklin Street, 13th Floor
Houston, Texas 77002

RESPONDENTS:

KIM OGG
Harris County District Attorney
500 Jefferson Street, Suite 600
Houston, Texas 77002
KEN PAXTON
Texas State Attorney General
P.O. Box 12548
Austin, Texas 78711

3

TABLE OF CONTENTS
COVER PAGE .............................................................................................. 1
QUESTION PRESENTED ............................................................................... 2
PARTIES TO THE PROCEEDINGS ................................................................... 3
TABLE OF CONTENTS ................................................................................. 4
TABLE OF CITED AUTHORITIES ................................................................... 5
OPINION AND ORDER ENTERED IN PETITIONER’S CASE ............................... 6
STATEMENT OF THE BASIS FOR JURISDICTION IN THIS COURT ...................... 7
CONSTITUTIONAL PROVISION INVOLVED IN THE CASE ................................. 8
STATEMENT OF THE CASE ........................................................................... 9
REASONS FOR GRANTING THE PETITION ................................................... 10
I.

Outrageous Government Conduct ....................................... 10

II.

What law enforcement did here ........................................... 11

III.

The reason the actions of law enforcement
were outrageous. .................................................................. 13

Conclusion .............................................................................................. 16
List of Appendices .................................................................................. 17
Appendix A ............................................................................................ 18
Appendix B ............................................................................................ 44
4

TABLE OF CITED AUTHORITIES
Cases
Hampton v. United States, 425 U.S. 484, 96 S.Ct. 1646,
48 L.Ed.2d 113 (1976) ............................................................................. 12
Perales v. State, 622 S.W.3d 575 (Tex. App.—Houston
[14th Dist.] 2021, pet. ref’d) ........................................................... 7, 17-19
United States v. Evans, 941 F.2d 267 (5th Cir. 1991) ............................ 12
United States v. Russell, 411 U.S. 423, 93 S.Ct. 1637,
36 L.Ed.2d 366 (1973) ....................................................................... 11, 15
United States v. Tobias, 662 F.2d 381 (5th Cir. Unit B 1986),
cert. denied, 457 U.S. 1108, 102 S.Ct. 2908, 73 L.Ed.2d 1317 (1982) .... 12
Constitutional Provisions
U.S. CONST. amend. V.............................................................................. 12
U.S. CONST. amend. XIV ...................................................................... 9, 12
U.S. CONST. amend. XIV, § 1 ..................................................................... 9
Statute
28 U.S.C. § 1257 ........................................................................................ 8
Rule
SUP. CT. R. 13(1)......................................................................................... 8

5

OPINION AND ORDER ENTERED IN PETITIONER’S CASE
A. Opinion of the Fourteenth District Court of Appeals of Texas,
Perales v. State, 622 S.W.3d 575 (Tex. App.—Houston [14th Dist.]
2021, pet. ref’d). Appendix A.
B. Order Refusing Petition for Discretionary Review, Perales v. State,
No. PD-0359-21 (Tex. Crim. App., July 28, 2021). Appendix B.

6

STATEMENT OF THE BASIS FOR JURISDICTION IN THIS COURT
On March 5, 2021, a panel of the Fourteenth District Court of
Appeals of Texas issued an opinion rejecting Mr. Robert Ronald Perales’s
appellate arguments.

On April 22, 2021, the same panel of the

Fourteenth Court of Appeals rejected Mr. Perales’s motion for rehearing.
Mr. Perales did not file a motion for en banc reconsideration.
Mr. Perales timely filed a petition for discretionary review with the
Texas Court of Criminal Appeals on June 23, 2021. On July 28, 2021,
the Texas Court of Criminal Appeals refused Mr. Perales’s petition for
discretionary review.
This petition for a writ of certiorari is filed on September 22, 2021.
This is within 90 days of the denial of the petition for discretionary review
in Mr. Perales’s case. Therefore, the petition for a writ of certiorari is
timely. See SUP. CT. R. 13(1).

This Court’s jurisdiction is invoked

pursuant to 28 U.S.C. § 1257.

7

CONSTITUTIONAL PROVISION INVOLVED IN THE CASE
FOURTEENTH AMENDMENT
All persons born or naturalized in the United States, and subject to
the jurisdiction thereof, are citizens of the United States and of the State
wherein they reside. No State shall make or enforce any law which shall
abridge the privileges or immunities of citizens of the United States; nor
shall any State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction the
equal protection of the laws.
U.S. CONST. amend. XIV, § 1.

8

STATEMENT OF THE CASE
Robert Ronald Perales, Petitioner, was convicted by a jury of the
offense of the felony offense of online solicitation of a minor.1 The jury
assessed punishment at three years’ confinement. But the trial court
suspended execution of the sentence and placed Mr. Perales on
community supervision for five years.2
On appeal, Mr. Perales advanced six issues. One of the six issues
involved the defense of outrageous government conduct. The Fourteenth
Court of Appeals of Texas rejected all six of Mr. Perales’s issues including
his argument concerning outrageous government conduct.
Having been afforded no relief by the Fourteenth Court of Appeals,
Mr. Perales turned to the Texas Court of Criminal Appeals. He filed a
petition for discretionary review with the Court of Criminal Appeals that
the Court ultimately refused.
In light of the fact that the Texas courts have denied his requested
relief, Mr. Perales now files this petition for a writ of certiorari.

1
2

See Tex. Penal Code § 33.021.
The trial court was the 180th District Court of Harris County, Texas.

9

REASONS FOR GRANTING THE PETITION
An intermediate Texas appellate court found that certain acts by
the police did not constitute outrageous government conduct. The Texas
Court of Criminal Appeals declined to review that finding.
Mr. Robert Ronald Perales, the petitioner in this case, asks this
Court to find that the police action in question truly was outrageous.
I. Outrageous government conduct
Outrageous government conduct exists when the actions of law
enforcement are shocking to the universal sense of justice. Outrageous
government conduct is a due process violation that bars the government
from invoking judicial process to obtain a conviction. The concept was
first recognized by this Court nearly fifty years ago in United States v.
Russell:
We may some day be presented with a situation in which the
conduct of the law enforcement agencies is so outrageous that
due process principles would absolutely bar the government
from invoking judicial process to obtain a conviction.3

3

United States v. Russell, 411 U.S. 423, 431-32, 93 S.Ct. 1637, 36 L.Ed.2d 366 (1973).

10

The conduct must violate “fundamental fairness” and be “shocking
to the universal sense of justice, mandated by the Due Process Clause of
the Fifth Amendment.”4
A claim of outrageous government conduct is to be reviewed by
appellate courts as a legal matter, i.e., as a matter of law.5 The appellate
determination must be based on the totality of the circumstances – no
single factor is controlling.6 There is “no sharply defined standard” for
appellate courts to use in deciding whether government conduct is
outrageous.7 The judiciary has the power to find outrageous government
conduct “when warranted by the circumstances.”8
II. What law enforcement did here
Here, police created an online persona with an intentionally
ambiguous age and then arrested a man for online child solicitation when

Id. at 432. Of course, the Fourteenth Amendment’s Due Process Clause may also
be violated. Mr. Perales argues that the Fourteenth Amendment has been violated.
5 United States v. Evans, 941 F.2d 267, 270-71 (5th Cir. 1991). See also Hampton v.
United States, 425 U.S. 484, 496, 96 S.Ct. 1646, 1653, 48 L.Ed.2d 113 (1976)
(Brennan, J., dissenting) (“determination of the lawfulness of the Government’s
conduct must be made as it is on all questions involving the legality of law
enforcement methods by the trial judge, not the jury”).
6 United States v. Tobias, 662 F.2d 381, 387 (5th Cir. Unit B 1986), cert. denied, 457
U.S. 1108, 102 S.Ct. 2908, 73 L.Ed.2d 1317 (1982).
7 Hampton v. United States, 425 U.S. at 494 n. 6 (Powell, J., concurring).
8 Id.
4

11

he flirted with the persona. The basic facts are detailed in the following
two paragraphs.
Mr. Perales contacted a woman named Jennifer on a dating
application called “Plenty of Fish.”9 Jennifer claimed to be 18.10 They
engaged in a text conversation that turned sexual.

During the

conversation, Jennifer said she was actually 16.11 But she declined to
reaffirm that statement when Mr. Perales said she sounded older.12
In reality, Jennifer was not a real person. Rather, she was an
online persona created by law enforcement.

The police established

Jennifer’s age as 18 from the very beginning in order to get someone
looking for an adult to contact her. Once that initial contact was made,
the police sort of changed Jennifer’s age to 16. Again, Jennifer declined
to reassert that she was really 16. Mr. Perales ended up traveling to
meet Jennifer for sex at her apartment where he was arrested by police.

6 R.R. at Defendant’s Exhibit 6.
6 R.R. at State’s Exhibit 1.
11 4 R.R. at 76.
12 6 R.R. at Defendant’s Exhibit 6.
9

10

12

III. The reason the actions of law enforcement were outrageous
Mr. Perales contends the facts constitute one of those rare
circumstances in which the government’s conduct is so outrageous that
due process bars his conviction. The fake profile for “Jennifer” that police
officers placed on the Plenty-of-Fish website said she was 18 years old.13
Mr. Perales made contact with Jennifer.14 This was perfectly legal. Mr.
Perales was not searching for underage girls.15 Only after conversing for
a while on Plenty of Fish did Jennifer say she was 16. But she never
reasserted that fact. In response to Mr. Perales’s statement that “[y]ou
sound older than 16,” Jennifer sent a text message saying “Haajaa I do.”16
She did not reassert that she was 16 and instead made the fact of her age
entirely uncertain. The offensive government conduct here is: (1) the
police officers’ attempt to make the online persona’s age as indefinite as

6 R.R. at State’s Exhibit 1.
6 R.R. at Defendant’s Exhibit 6. In reality, Mr. Perales was conversing via text
with a male police officer. Later, Mr. Perales conversed via telephone with a female
police officer.
15 Mr. Perales had gone on 30 to 40 dates with women he had met through Plenty of
Fish. None of them were under 18. 4 R.R. at 46.
16 6 R.R. at Defendant’s Exhibit 6. It was during his telephone conversation with
the female police officer that Mr. Perales told Jennifer she sounded older than 16.
13
14

13

possible; and (2) to then turn around and arrest Mr. Perales for soliciting
a person he believed to be an adult.
This case presents law enforcement’s engagement in a set of actions
calculated to ensnare a perfectly law-abiding individual. The police did
not initially establish Jennifer as being underage because that would
seriously reduce the number of persons who might try to contact her.
Instead, the police created a fake profile for Jennifer which showed her
age as 18.

This created a situation where persons seeking adult

companionship (such as Mr. Perales) would contact Jennifer.
Mr. Perales’s arrest was entirely unfair. Indeed, one may view the
police conduct as “shocking to the universal sense of justice.”17

Mr.

Perales urges this Court to resolutely set its face against such lawenforcement overreach. Surely there is enough real crime in our country
that taxpayer-funded police officers should not be creating fake crime.
And surely, we should not, as a society, endorse police action that turns
a man into a felon simply for flirting with a potential girlfriend.

17

See United States v. Russell, 411 U.S. at 431-32.

14

The law-enforcement actions in this case shock the conscience. In
the name of due process, the prosecution of this case should be barred.

15

CONCLUSION
The petition for a writ of certiorari should be granted.

Respectfully submitted,
ALEXANDER BUNIN
Chief Public Defender
Harris County Texas
__/s/ Theodore Lee Wood______
THEODORE LEE WOOD
Assistant Public Defender
Harris County, Texas
State Bar of Texas No. 21907800
1201 Franklin, 13th Floor
Houston Texas 77002
Phone: (713) 274-6705
ted.wood@pdo.hctx.net

16

LIST OF APPENDICES
Appendix A
Opinion of the Fourteenth District Court of Appeals of Texas,
Perales v. State, 622 S.W.3d 575 (Tex. App.—Houston [14th Dist.]
2021, pet. ref’d).
Appendix B
Order Refusing Petition for Discretionary Review, Perales v. State,
No. PD-0359-21 (Tex. Crim. App. July 28, 2021).

17

Appendix A
Opinion of the Fourteenth District Court of Appeals of Texas,
Perales v. State, 622 S.W.3d 575 (Tex. App.—Houston [14th Dist.]
2021, pet. ref’d).

18

622 S.W.3d 575
Court of Appeals of Texas, Houston (14th Dist.).

Robert Ronald PERALES, Appellant
v.
The STATE of Texas, Appellee
NO. 14-19-00236-CR
Opinion filed March 25, 2021
Rehearing Denied April 22, 2021
Discretionary Review Refused July 28, 2021

Synopsis
Background: Defendant was convicted in the 180th District Court, Harris County,
of online solicitation of a minor. Defendant appealed.
Holdings: The Court of Appeals, Bourliot, J., held that:
1 police officer constituted “an individual” being solicited by defendant under
statute governing online solicitation of a minor, despite assuming the fake
identity of a 16-year-old girl;
2 there was sufficient evidence that defendant believed the girl he was soliciting
was younger than 17 years of age to support conviction;
3 defendant was not objectively induced to commit offense of online solicitation
of a minor by such persuasion that would cause an ordinarily law-abiding person
of average resistance to commit the crime;
4 probative value of evidence of defendant's internet search history was not
substantially outweighed by its prejudicial effect; and

19

5 police officer's conduct of posing as a 16-year-old girl did not constitute
outrageous government conduct.
Affirmed.
Procedural Posture(s): Appellate Review; Trial or Guilt Phase Motion or
Objection.
West Headnotes (27)Collapse West Headnotes

Grid View

List View

1 Criminal Law
When reviewing sufficiency of the evidence, Court of Appeals views all the
evidence in the light most favorable to the verdict and determines, based on
that evidence and any reasonable inferences therefrom, whether any rational
factfinder could have found the elements of the offense beyond a reasonable
doubt.
110 Criminal Law
110XXIV Review
110XXIV(M) Presumptions
110k1144 Facts or Proceedings Not Shown by Record
110k1144.13 Sufficiency of Evidence
110k1144.13(2) Construction of Evidence
110k1144.13(2.1) In general
110 Criminal Law
110XXIV Review
110XXIV(P) Verdicts
110k1159 Conclusiveness of Verdict
110k1159.2 Weight of Evidence in General
110k1159.2(7) Reasonable doubt
2 Criminal Law
When reviewing sufficiency of the evidence, Court of Appeals does not sit as a
thirteenth juror and may not substitute its judgment for that of the factfinder
by reevaluating the weight and credibility of the evidence.
20

110 Criminal Law
110XXIV Review
110XXIV(P) Verdicts
110k1159 Conclusiveness of Verdict
110k1159.1 In general
3 Criminal Law
When reviewing sufficiency of the evidence, Court of Appeals defers to the
factfinder to fairly resolve conflicts in testimony, weigh the evidence, and draw
reasonable inferences from basic to ultimate facts.
110 Criminal Law
110XXIV Review
110XXIV(P) Verdicts
110k1159 Conclusiveness of Verdict
110k1159.1 In general
4 Criminal Law
Jackson v. Virginia sufficiency of evidence standard applies equally to both
circumstantial and direct evidence.
110 Criminal Law
110XXIV Review
110XXIV(P) Verdicts
110k1159 Conclusiveness of Verdict
110k1159.6 Circumstantial evidence
5 Criminal Law
Each fact need not point directly and independently to the defendant's guilt so
long as the cumulative effect of all incriminating facts is sufficient to support
the conviction.
110 Criminal Law
110XVII Evidence
110XVII(V) Weight and Sufficiency
110k562 Sufficiency to support conviction in general

21

6 Criminal Law
When reviewing the sufficiency of evidence, Court of Appeals measures
whether the evidence presented at trial was sufficient to support a conviction
by comparing it to the elements of the offense as defined by the hypothetically
correct jury charge for the case.
110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)2 Matters or Evidence Considered
110k1134.17 Evidence
110k1134.17(3) Weight and sufficiency
7 Criminal Law
For purposes of reviewing the sufficiency of the evidence to support a
conviction, the hypothetically correct jury charge accurately sets out the law, is
authorized by the indictment, does not unnecessarily increase the State's
burden of proof or unnecessarily restrict the State's theories of liability, and
adequately describes the particular offense for which the defendant was tried.
110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)2 Matters or Evidence Considered
110k1134.17 Evidence
110k1134.17(3) Weight and sufficiency
8 Criminal Law
For purposes of reviewing sufficiency of the evidence to support a conviction,
the law as authorized by the indictment includes the statutory elements of the
offense as modified by the indictment.
110 Criminal Law
110XXIV Review
110XXIV(L) Scope of Review in General
110XXIV(L)2 Matters or Evidence Considered
110k1134.17 Evidence
110k1134.17(3) Weight and sufficiency
22

9 Infants
Telecommunications
Police officer constituted “an individual” being solicited by defendant under
statute governing online solicitation of a minor, despite assuming the fake
identity of a 16-year-old girl. Tex. Penal Code Ann. § 33.021(c).
211 Infants
211XII Criminal Acts Against Children
211XII(C) Sex Offenses
211k1591 Communication or solicitation for immoral purposes
372 Telecommunications
372VIII Computer Communications
372k1347 Offenses and Prosecutions
372k1350 Soliciting minor for sex or illegal act; child pornography
10 Infants
Telecommunications
There was sufficient evidence that defendant believed the girl he was soliciting
was younger than 17 years of age to support conviction for online solicitation
of a minor; police officer posing as girl told defendant she was 16 years old,
defendant told her that he wanted to get to know her anyway, defendant
repeatedly asked whether person he was speaking with was police, and
defendant discussed with girl, who said she was living with her mother, how
they could get together without girl's mother knowing. Tex. Penal Code Ann. §
33.021(c).
211 Infants
211XII Criminal Acts Against Children
211XII(F) Evidence Issues Particular to Offenses Against Children
211XII(F)2 Sex Offenses
211k1744 Weight and Sufficiency
211k1746 Molestation and exploitation in general; indecent liberties
372 Telecommunications
372VIII Computer Communications
372k1347 Offenses and Prosecutions
372k1351 Prosecutions
23

11 Criminal Law
Entrapment defense is not raised when evidence suggests that criminal design
originated in defendant's mind and officers merely furnished opportunity for
commission of crime. Tex. Penal Code Ann. § 8.06(a).
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k37 Entrapment
110k37(2) What Constitutes Entrapment
110k37(3) Originating intent; furnishing opportunity or facilities
12 Criminal Law
Defendant raises entrapment defense by producing evidence to establish
every element of that defense. Tex. Penal Code Ann. § 8.06(a).
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k37 Entrapment
110k37(1) In general
13 Criminal Law
Defendant raising entrapment defense must present prima facie evidence that
(1) he engaged in conduct charged; (2) he was induced to do so by law
enforcement agent; (3) law enforcement agent used persuasion or other
means; and (4) those means were likely to cause persons to commit
offense. Tex. Penal Code Ann. § 8.06(a).
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k37 Entrapment
110k37(2) What Constitutes Entrapment
110k37(2.1) In general

24

14 Criminal Law
Once defendant makes prima facie showing of each element of entrapment
defense, burden shifts to state to disprove entrapment beyond reasonable
doubt. Tex. Penal Code Ann. § 8.06(a).
110 Criminal Law
110XVII Evidence
110XVII(C) Burden of Proof
110k326 Burden of Proof
110k330 Matters of defense and rebuttal in general
110 Criminal Law
110XVII Evidence
110XVII(V) Weight and Sufficiency
110k569 Defenses in general
15 Criminal Law
Entrapment includes subjective and objective component: defendant must
show both that he was actually induced to commit charged offense by
persuasiveness of police conduct, and that persuasion was such as to cause
ordinarily law-abiding person of average resistance to commit offense. Tex.
Penal Code Ann. § 8.06(a).
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k37 Entrapment
110k37(2) What Constitutes Entrapment
110k37(2.1) In general
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k37 Entrapment
110k37(2) What Constitutes Entrapment
110k37(3) Originating intent; furnishing opportunity or facilities

25

16 Criminal Law
Defendant was not objectively induced to commit offense of online solicitation
of a minor by such persuasion that would cause an ordinarily law-abiding
person of average resistance to commit the crime, and thus entrapment defense
did not apply; police officer testified that he used fake dating profile to pose as
16-year-old “Jennifer” numerous times, and that nearly 100 percent of the time,
when “Jennifer” reveals that she is only 16, the person she is chatting with
either stops chatting with her or chastises her for being young and on the dating
site, and that defendant was the only person he had known to lie about his age
after Jennifer revealed her age. Tex. Penal Code Ann. § 8.06(a).
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k37 Entrapment
110k37(6) Particular Cases and Offenses
110k37(6.1) In general
17 Criminal Law
Appellate court reviews a trial court's decision to admit or exclude evidence
under an abuse of discretion standard.
110 Criminal Law
110XXIV Review
110XXIV(N) Discretion of Lower Court
110k1153 Reception and Admissibility of Evidence
110k1153.1 In general
18 Criminal Law
If the trial court's ruling to admit or exclude evidence falls within the zone of
reasonable disagreement, appellate court will affirm that decision.
110 Criminal Law
110XXIV Review
110XXIV(N) Discretion of Lower Court
110k1153 Reception and Admissibility of Evidence
110k1153.1 In general

26

19 Criminal Law
In determining whether probative value of evidence is substantially
outweighed by danger of unfair prejudice, courts must balance (1) the inherent
probative force of the proffered evidence and (2) the proponent's need for that
evidence, against (3) any tendency of the evidence to suggest decision on an
improper basis, (4) any tendency to confuse or distract the jury from the main
issues, (5) any tendency to be given undue weight by the jury, and (6) the
likelihood that presentation of the evidence will consume an inordinate amount
of time or be cumulative of other evidence. Tex. R. Evid. 403.
110 Criminal Law
110XVII Evidence
110XVII(D) Facts in Issue and Relevance
110k338 Relevancy in General
110k338(7) Evidence calculated to create prejudice against or sympathy for
accused
20 Criminal Law
All evidence tends to be prejudicial to one party or the other; only “unfair”
prejudice provides the basis for exclusion of relevant evidence.
110 Criminal Law
110XVII Evidence
110XVII(D) Facts in Issue and Relevance
110k338 Relevancy in General
110k338(7) Evidence calculated to create prejudice against or sympathy for
accused
21 Criminal Law
Prejudice resulting from evidence is “unfair” if it has an undue tendency to
suggest decision on an improper basis, commonly, though not necessarily, an
emotional one.
110 Criminal Law
110XVII Evidence
110XVII(D) Facts in Issue and Relevance
110k338 Relevancy in General
110k338(7) Evidence calculated to create prejudice against or sympathy for
accused
27

22 Criminal Law
Probative value of evidence of defendant's internet search history was not
substantially outweighed by its prejudicial effect at trial for solicitation of a
minor; defendant's search on pornography website for “ebony young teen”
tended to show that defendant intended to meet a young Black teenager, like
the 16-year-old girl, “Jennifer,” police officer posed as on dating website, for a
sexual encounter, and rebutted defendant's testimony that he did not intend to
have sex with someone under 17. Tex. R. Evid. 403.
110 Criminal Law
110XVII Evidence
110XVII(D) Facts in Issue and Relevance
110k338 Relevancy in General
110k338(7) Evidence calculated to create prejudice against or sympathy for
accused
23 Constitutional Law
Criminal Law
Police officer's conduct of posing as a 16-year-old girl on dating website for
purpose of catching a sexual predator did not constitute outrageous
government conduct in violation of defendant's right to due process. U.S. Const.
Amend. 14.
92 Constitutional Law
92XXVII Due Process
92XXVII(H) Criminal Law
92XXVII(H)3 Law Enforcement
92k4521 Conduct of Police and Prosecutors in General
92k4523 Investigative activity in general
110 Criminal Law
110II Defenses in General
110k36.5 Official Action, Inaction, Representation, Misconduct, or Bad Faith
110k36.6 In general
24 Criminal Law
Only a few rights warrant an exception from the requirement for preservation
of error; waivable only rights include the right to assistance of counsel, the right
28

to trial by jury, and the statutorily mandated right that appointed counsel have
ten days before trial to prepare. U.S. Const. Amend. 6.
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1035 Proceedings at Trial in General
110k1035(1) In general
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1035 Proceedings at Trial in General
110k1035(7) Counsel for accused
25 Criminal Law
Absolute, systemic requirements that cannot be waived include personal
jurisdiction, subject matter jurisdiction, and a penal statute's compliance with
the separation of powers section of the Texas Constitution.
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in General
110k1030(2) Constitutional questions
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in Lower Court of Grounds of Review
110XXIV(E)1 In General
110k1033.1 Jurisdiction

29

26 Criminal Law
Defendants must preserve error on alleged violations of most constitutional
rights, even those assured by due process. U.S. Const. Amend. 14.
110 Criminal Law
110XXIV Review
110XXIV(E) Presentation and Reservation in Lower Court of Grounds of
Review
110XXIV(E)1 In General
110k1030 Necessity of Objections in General
110k1030(2) Constitutional questions
27 Constitutional Law
Deprivation of constitutional due process rights through outrageous
government conduct is defense which may be raised only in rarest and most
outrageous circumstances. U.S. Const. Amend. 14.
92 Constitutional Law
92XXVII Due Process
92XXVII(H) Criminal Law
92XXVII(H)3 Law Enforcement
92k4521 Conduct of Police and Prosecutors in General
92k4522 In general
*578 On Appeal from the 180th District Court,
Harris County, Texas,
Trial Court Cause No. 1511374
Attorneys and Law Firms
Theodore Lee Wood, Houston, for Appellant.
Clinton Morgan, Houston, for Appellee.
Panel consists of Justices Bourliot, Hassan, and Poissant.

30

OPINION
Frances Bourliot, Justice
Appellant Robert Ronald Perales challenges his conviction for online
solicitation *579 of a minor. Concluding that the jury's guilty finding is
supported by legally sufficient evidence, the trial court did not err in admitting
evidence of an internet search by appellant, and appellant was not entitled to
an outrageous government conduct defense, we affirm.
Background
Appellant started a conversation on the Plenty of Fish dating application
with a user who had a profile identifying herself as 18-year-old Jennifer.
Unbeknownst to appellant, the account had been created and was managed by
Sergeant Wilson of the High-Tech Crimes Unit of the Harris County Sheriff's
Office. There were three pictures on the account of another officer, taken when
she was 14 and 16 years old.
After exchanging a series of messages on Plenty of Fish, Wilson, posing as
Jennifer, asked appellant how old he was.1 Appellant said that he was 20, but
he was 26. Jennifer then disclosed that she was only 16. Appellant responded,
“[I] still wanna get to know you if that[']s cool.” Jennifer asked, “how much”? to
which appellant responded, “A lot.” During the conversation, appellant
discussed in detail sexual acts he planned to engage in with Jennifer, ultimately
leading to sexual intercourse. She said she was afraid of getting pregnant, to
which he responded that he could bring a condom. She also told him that she
lived with her mother. Appellant asked when Jennifer's mother was leaving for
work and asked for Jennifer's address, which she provided. Jennifer told
appellant he could come over “Now I guess if you fr” (“fr” meant “for real”).
Appellant gave Jennifer his phone number and said he was on the way. He then
asked, “Are you the police?”

31

Deputy Chu, posing as Jennifer, then called appellant. Appellant said he
would arrive around 9 p.m. After the phone call, Chu and appellant began
texting each other. Appellant again asked if she was the police and said he
wanted to “mak[e] sure this isn[']t a set up.” Appellant also texted later, “You
sound older than 16” and asked for a picture. She responded that she was
getting ready. Appellant then texted that he was at the gate of the apartment
complex where Jennifer purportedly lived. Appellant asked her to meet him at
his car, but she asked him to come to the door. Appellant called and again asked
her to come outside, and she first said she was scared and then said she was not
“fully dressed.” Appellant said “this sounds suspicious” but eventually went to
the apartment door. Police officers opened the door. Appellant ran away, but
when he was apprehended, he said he was sorry and said, “please forgive me.”
A jury found appellant guilty of online solicitation of a minor and assessed
punishment at three years' confinement. The trial court suspended the
sentence, placed appellant on community supervision for five years, and
certified appellant's right to appeal.
Discussion
In six issues, appellant challenges (1) the sufficiency of the evidence in
support of the jury's finding of guilt, (2) the jury instruction on the entrapment
defense submitted to the jury, and (3) the trial court's admission of evidence
involving an internet search made by appellant. Appellant also contends police
officers engaged in outrageous government conduct in violation of his due
process rights by “creat[ing] an online persona with an intentionally ambiguous
age and then arrest[ing] a man for child solicitation.” We first address
the *580 sufficiency challenges and then the remaining issues.
I. Sufficiency Challenges
1 2 3 4 5 Appellant contends (1) there is no evidence that he solicited an
actual individual, (2) the evidence conclusively establishes reasonable doubt
regarding whether appellant believed Jennifer was under 17, and (3) the
32

evidence conclusively establishes “reasonable doubt as to the non-existence of
entrapment.” When reviewing sufficiency of the evidence, we view all the
evidence in the light most favorable to the verdict and determine, based on that
evidence and any reasonable inferences therefrom, whether any rational
factfinder could have found the elements of the offense beyond a reasonable
doubt. Gear v. State, 340 S.W.3d 743, 746 (Tex. Crim. App. 2011) (citing Jackson
v. Virginia, 443 U.S. 307, 318–19, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979)). We do
not sit as a thirteenth juror and may not substitute our judgment for that of the
factfinder by reevaluating the weight and credibility of the evidence. Isassi v.
State, 330 S.W.3d 633, 638 (Tex. Crim. App. 2010). Rather, we defer to the
factfinder to fairly resolve conflicts in testimony, weigh the evidence, and draw
reasonable inferences from basic to ultimate facts. Id. This standard applies
equally to both circumstantial and direct evidence. Id. Each fact need not point
directly and independently to the appellant's guilt so long as the cumulative
effect of all incriminating facts is sufficient to support the conviction. Hooper v.
State, 214 S.W.3d 9, 13 (Tex. Crim. App. 2007).
6 7 8 We measure whether the evidence presented at trial was sufficient
to support a conviction by comparing it to the elements of the offense as defined
by the hypothetically correct jury charge for the case. Zuniga v. State, 551
S.W.3d 729, 733 (Tex. Crim. App. 2018). The hypothetically correct jury charge
accurately sets out the law, is authorized by the indictment, does not
unnecessarily increase the State's burden of proof or unnecessarily restrict the
State's theories of liability, and adequately describes the particular offense for
which the defendant was tried. Id. The “law as authorized by the indictment”
includes the statutory elements of the offense as modified by the indictment. Id.
A person commits the offense of online solicitation of a minor
if the person, over the Internet, by electronic mail or text message
or other electronic message service or system, or through a
commercial online service, knowingly solicits a minor to meet
another person, including the actor, with the intent that the minor

33

will engage in sexual contact, sexual intercourse, or deviate sexual
intercourse with the actor or another person.
Tex. Penal Code § 33.021(c). “Minor” is defined as “an individual who is younger
than 17 years of age” or “an individual whom the actor believes to be younger
than 17 years of age.” Id. § 33.021(a)(1).
Appellant was indicted with the following:
knowingly solicit[ing] over the internet, through a commercial
online service, and by an electronic message service and system M.
Wilson ... an individual whom the Defendant believed to be younger
than seventeen years of age to meet [appellant] with the intent that
the Complainant would engage in sexual contact, sexual
intercourse, and deviate sexual intercourse with [appellant].
9 “An individual.” In his first issue, appellant concedes that he
“solicit[ed] ‘Jennifer’ for sex,” but contends “Jennifer is not an actual person.”
According to appellant, because Officer Wilson assumed a fake identity, he was
not an individual as defined under the statute. Appellant says, *581 “if a police
officer is impersonating an individual, then he or she is necessarily not an
individual.” (Emphasis in original.)
Despite this novel argument, we have noted that the statute is meant to
permit police officers “to pos[e] as ... minor[s]” to intercept sexual predators
before they “physically appear” at a meeting place to engage in sexual activity
with a child. Ex parte Moy, 523 S.W.3d 830, 837 (Tex. App.—Houston [14th
Dist.] 2017, pet. ref'd) (citing Senate Criminal Justice Comm., Bill Analysis, Tex.
H.B. 2228, 79th Leg., R.S. (2005), and Tex. Penal Code § 33.021(c)). The Court
of Criminal Appeals similarly recognized the “legitimate goal” under the
statute “of prosecuting ‘sexual predators who attempt to solicit a minor, or a
police officer posing as a minor, for unlawful activity when the individual does
not show up for the meeting.’ ” Ex parte Lo, 424 S.W.3d 10, 26 (Tex. Crim. App.
2013) (emphasis added) (citing House Comm. on Criminal Jurisprudence, Bill
34

Analysis, Tex. H.B. 2228, 79th Leg., R.S. (2005)); see also Ex parte Ingram, 533
S.W.3d 887, 897 (Tex. Crim. App. 2017) (“A police officer could be
impersonating an individual under age 17 as part of a sting operation.”).
Unbeknownst to appellant, Jennifer was, in fact, Officer Wilson. Nothing
in the statute, however, prohibited Officer Wilson from posing as Jennifer in an
attempt “to intercept sexual predators before they ‘physically appear’ at a
meeting place [to engage] in sexual activity with a child.” Moy, 523 S.W.3d at
837. In fact, the legislature expressly stated that under the statute, officers
would be permitted to do so “to stop an offender before the offender could
injure [a] child.” Id. (citing House Criminal Jurisprudence Comm., Bill Analysis,
H.B. 2228, 79th Leg., R.S. (2005)). We conclude there is sufficient evidence to
support the jury's finding that Officer Wilson was an individual as defined by
the statute. We overrule appellant's first issue.
10 “[W]hom [appellant] believe[d] to be younger than 17 years of
age.” Appellant also contends in his second issue that the evidence conclusively
establishes a reasonable doubt as to his belief that the solicited individual was
under 17. Appellant points to the following evidence in support of this
argument: (1) Jennifer's Plenty of Fish profile said she was 18, and Plenty of
Fish is an adult dating website whose users are supposed to be 18 or older; (2)
appellant said he thought Jennifer was around 23 because his ex-girlfriend was
23 and Jennifer's profile photos looked like Jennifer was around the same age;
(4) appellant had gone on many dates with women he met on Plenty of Fish,
and none of those women were under 18; and (5) appellant texted Jennifer that
she sounded older than 16, and Jennifer did not “reassert” that she was only 16.
According to appellant, the jury's finding that he thought Jennifer was under 17
is not a rational finding. We disagree.
The State presented evidence that after Jennifer told appellant she was
only 16, appellant said, “[I] still wanna get to know you if that[']s cool.” After
Jennifer asked “how much”? appellant said, “A lot,” and he subsequently
discussed in detail the sexual contact he wanted to engage in with Jennifer,
ultimately leading to sexual intercourse. Appellant also offered to bring a
35

condom. He admitted at trial that he never told Jennifer he was not interested
in meeting up with someone who was only 16. He drove 30 to 45 minutes to
meet up with Jennifer after she said she was only 16. He also offered to pick
Jennifer up from school and asked her to skip school. He knew Jennifer lived
with her mother, and they discussed how to get together without Jennifer's
mother knowing. The pictures *582 on Jennifer's Plenty of Fish profile were of
a girl when she was 14 and 16 years old.
Appellant's own testimony provided some evidence from which the jury
could have inferred that appellant believed Jennifer was under 17. Appellant
testified that many users on Plenty of Fish lied about their age, so the jury
reasonably could have inferred that appellant believed Jennifer when she told
him she was 16, not 18. In fact, appellant represented himself as being five years
younger than his actual age. The jury could have inferred that appellant lied
about his age to make himself more attractive to a teenager. Appellant also
spoke in detail about “the younger generation” and how they flirt in a sexually
explicit manner. He conceded that Jennifer's answers were consistent with
things someone 16 years old might say.
Appellant moreover repeatedly asked Jennifer if the police were involved
(asking “Are you the police?” and if this was a set-up), he fled when he saw
police officers, and he apologized when he was caught. The jury reasonably
could have inferred that these actions showed a consciousness of
guilt. See Balderas v. State, 517 S.W.3d 756, 767 & n.16 (Tex. Crim. App.
2016) (noting that evidence of flight evinces a consciousness of guilt); see
also Hedrick v. State, 473 S.W.3d 824, 830-31 (Tex. App.—Houston [14th Dist.]
2015, no pet.) (“A defendant's conduct after the commission of a crime which
indicates a ‘consciousness of guilt’ is admissible to prove that he committed the
offense.... A consciousness of guilt is perhaps one of the strongest kinds of
evidence of guilt.”).
The jury could have inferred from all this evidence that appellant
believed Jennifer was under 17. And the jury was free to disregard appellant's
self-serving testimony that he did not believe Jennifer was 16, particularly
36

given all the evidence presented at trial. See, e.g., Darkins v. State, 430 S.W.3d
559, 566 (Tex. App.—Houston [14th Dist.] 2014, pet. ref'd) (holding in light of
all the evidence presented at trial, the jury was free to disregard defendant's
self-serving testimony about his lack of intent to cause bodily injury).
Considering all the evidence in the light most favorable to the verdict, a rational
jury could have determined beyond a reasonable doubt that appellant believed
he was soliciting an individual who was younger than 17 years old. We overrule
appellant's second issue.
11 Entrapment Defense. In his third issue, appellant contends that he
raised the defense of entrapment and the State failed to present evidence to
disprove the defense beyond a reasonable doubt. Entrapment is “a defense to
prosecution that the actor engaged in the conduct charged because he was
induced to do so by a law enforcement agent using persuasion or other means
likely to cause persons to commit the offense.” Tex. Penal Code § 8.06(a).
“Conduct merely affording a person an opportunity to commit an offense does
not constitute entrapment.” Id. In other words, the entrapment defense is not
raised when the evidence suggests that the criminal design originated in the
appellant's mind and officers merely furnished the opportunity for commission
of the crime. Zarate v. State, 551 S.W.3d 261, 270 (Tex. App.—San Antonio
2018, pet. ref'd) (citing Reese v. State, 877 S.W.2d 328, 333 (Tex. Crim. App.
1994)).
12 13 14 A defendant raises the entrapment defense by producing
evidence to establish every element of that defense. Hernandez v. State, 161
S.W.3d 491, 497 (Tex. Crim. App. 2005). The defendant must present prima
facie evidence that (1) he engaged in the conduct charged; (2) he was induced
to do so by a law enforcement agent; (3) the law enforcement agent used
persuasion or other means; and (4) those means were likely to cause persons
to *583 commit the offense. Id. Once the defendant makes a prima facie
showing of each element, the burden shifts to the State to disprove entrapment
beyond a reasonable doubt. Id. at 498.

37

15 Entrapment includes a subjective and an objective component: the
defendant must show both that (1) he “was actually induced to commit the
charged offense by the persuasiveness of the police conduct,” and (2) “the
persuasion was such as to cause an ordinarily law-abiding person of average
resistance” to commit the offense. Id. at 497 n.11. Presuming without deciding
that appellant presented prima facie evidence that he subjectively was induced
to commit the charged offense by the persuasiveness of police conduct, he was
also required to present evidence supporting the objective component: that
“the persuasion was such as to cause an ordinarily law-abiding person of
average resistance nevertheless to commit the offense.” Id.
16 Appellant argues “ambiguity surrounding Jennifer's age” might have
led “an ordinary, law abiding person” to continue to chat with Jennifer.2 But
whether an ordinary, law abiding person would have continued to chat with
Jennifer is not the question. The question is whether a law-abiding person of
average resistance would solicit a meeting with someone to engage in “sexual
contact, sexual intercourse, or deviate sexual intercourse” after being told the
person was 16.
The State presented evidence that a law-abiding person of average
resistance would not do that. Officer Wilson testified that he used Jennifer's
profile numerous times on Plenty of Fish. He said when he reveals Jennifer is
only 16, one of two things happen “[a]lmost 100 percent” of the time: “One,
either they stop chatting with me immediately or I get chastised for being young
and on that site.” In response to the question, “Based on your training and
experience and specifically experience with this, have you ever known
somebody to lie about their age when they're an adult on these websites and
say that they're a juvenile?” Wilson said, “No. Other than an investigator, no.”
Nothing in the record suggests that appellant was objectively induced to
commit the offense by such persuasion that would cause an ordinarily lawabiding person of average resistance to commit the crime of online solicitation
of a minor. See Zarate, 551 S.W.3d at 271. Moreover, nothing in this record
shows that the officers involved did anything more than offer an opportunity
38

for the offense to be committed. Appellant initiated the conversation with
Jennifer on Plenty of Fish, continued the conversation after she told him she
was 16, told her he wanted to have sexual intercourse with her, set up a meeting
with her, and showed up to the meeting. See Robles v. State, 585 S.W.3d 591,
598 (Tex. App.—Houston [14th Dist.] 2019, pet. ref'd) (holding there was no
evidence of entrapment when the defendant propositioned an undercover
agent posing as a sex worker). Based on this record, the evidence did not raise
the defense of entrapment, and the burden never shifted to *584 the State to
disprove entrapment beyond a reasonable doubt. We overrule issue three.
In his fifth issue, appellant contends the jury charge instruction on
entrapment did not include a correct explanation of the State's burden of proof.
We do not reach this issue because appellant did not present a prima facie case
of entrapment and thus was not entitled to the instruction. See Zarate, 551
S.W.3d at 271 (“To warrant an instruction for entrapment, a defendant must
present a prima facie case [supporting each element of entrapment].”). The trial
court's error in the instruction, if any, would thus be harmless. See Ramirez v.
State, 611 S.W.3d 645, 654 (Tex. App.—Houston [14th Dist.] 2020, pet.
ref'd) (“Because appellant was not entitled to the instruction, any error
contained therein is harmless.”). We similarly do not reach appellant's
argument that he was entitled to an entrapment instruction even though he
pleaded not guilty.
II. Evidentiary Challenge
Appellant contends in his sixth issue that the trial court abused its
discretion in admitting evidence of appellant's internet search history on the
day before he contacted Jennifer. Appellant's internet browsing history from
that day showed a search on a pornography website for “ebony young teen.”
According to appellant, the probative value of this evidence was substantially
outweighed by a danger of unfair prejudice under Texas Rule of Evidence 403.
17 18 We review a trial court's decision to admit or exclude evidence
under an abuse of discretion standard. De La Paz v. State, 279 S.W.3d 336, 343–
39

44 (Tex. Crim. App. 2009); Foyt v. State, 602 S.W.3d 23, 47 (Tex. App.—Houston
[14th Dist.] 2020, pet. ref'd). If the trial court's ruling falls within the zone of
reasonable disagreement, we will affirm that decision. Moses v. State, 105
S.W.3d 622, 627 (Tex. Crim. App. 2003); Foyt, 602 S.W.3d at 47.
19 Under Rule 403, a “court may exclude relevant evidence if its
probative value is substantially outweighed by a danger of one or more of the
following: unfair prejudice, confusing the issues, misleading the jury, undue
delay, or needlessly presenting cumulative evidence.” Tex. R. Evid. 403. In
conducting a Rule 403 analysis, courts must balance (1) the inherent probative
force of the proffered evidence and (2) the proponent's need for that evidence,
against (3) any tendency of the evidence to suggest decision on an improper
basis, (4) any tendency to confuse or distract the jury from the main issues, (5)
any tendency to be given undue weight by the jury, and (6) the likelihood that
presentation of the evidence will consume an inordinate amount of time or be
cumulative of other evidence. Gigliobianco v. State, 210 S.W.3d 637, 641–42
(Tex. Crim. App. 2006); Foyt, 602 S.W.3d at 48.
20 21 All evidence tends to be prejudicial to one party or the
other. Hernandez v. State, 390 S.W.3d 310, 324 (Tex. Crim. App. 2012); Foyt,
602 S.W.3d at 48. Only “unfair” prejudice provides the basis for exclusion of
relevant evidence. Montgomery v. State, 810 S.W.2d 372, 378 (Tex. Crim. App.
1990); Foyt, 602 S.W.3d at 48. Prejudice is “unfair” if it has an “undue tendency
to suggest decision on an improper basis, commonly, though not necessarily, an
emotional one.” Montgomery, 810 S.W.2d at 378; Foyt, 602 S.W.3d at 48.
22 We turn to whether the evidence was unfairly prejudicial under
the Rule 403 balancing test. First, the trial court could have reasonably
concluded that the probative force of the evidence was considerable.
Appellant's defense at trial was that he was confused about Jennifer's age. His
internet browsing history from the day *585 before for an “ebony young teen”
tends to show that he intended to meet a young Black teenager like Jennifer for
a sexual encounter. The evidence thus tends to rebut appellant's testimony that
he did not intend to have sex with someone under 17.
40

The trial court reasonably could have concluded that the evidence would
not unduly tend to lead the jury to make an improper decision—appellant's
internet search related directly to the charged offense of online solicitation of a
minor because appellant had been searching for a “young teen” on a
pornography website. The trial court likewise reasonably could have concluded
that the evidence did not tend to confuse or distract the jury from the main
issues in the case. The State presented ample other evidence that appellant
wanted to meet a young teenager for a sexual encounter—appellant described
the sexual acts he wanted to engage in with Jennifer after she told him she was
only 16 and he arranged to meet her without her mother present the same day
they began chatting.
The trial court further reasonably could have concluded that the jury
would not tend to give the evidence undue weight—a State's witness testified
that appellant did not view any child pornography on his phone and appellant
testified that he was searching for role playing videos that did not actually
involve underage girls. Finally, the trial court reasonably could have concluded
that presentation of the evidence would not consume an inordinate amount of
time or be needlessly cumulative—it took up only a few minutes of the short
trial. The prosecutor mentioned the internet search during closing arguments
only toward the end of the State's rebuttal and in conjunction with the following
evidence—appellant wanted to meet Jennifer when her mother was not home,
wanted to make sure there were no police officers involved, said based on the
photos on Jennifer's profile of a teenaged girl that she was sexy, and drove 45
minutes to meet Jennifer around 10 p.m.
The trial court, after balancing the Rule 403 factors, reasonably could
have concluded that the probative value of the evidence of appellant's internet
search history was not substantially outweighed by the countervailing factors
specified in the rule. See Gigliobianco, 210 S.W.3d at 642-43; Foyt, 602 S.W.3d
at 49. We conclude the trial court did not abuse its discretion in admitting the
evidence. We overrule appellant's sixth issue.

41

III. Outrageous Government Conduct
23 In his fourth issue, appellant contends that the police engaged in
“outrageous government conduct” in violation of his right to due process.
Appellant acknowledges he did not raise this issue in the trial court but asserts
that he can raise this issue for the first time on appeal.
24 25 26 Only a few rights warrant an exception from the requirement
for preservation of error. Henson v. State, 407 S.W.3d 764, 768 (Tex. Crim. App.
2013); Elizondo v. State, 541 S.W.3d 271, 275 (Tex. App.—Houston [14th Dist.]
2017, pet. ref'd). Waivable only rights include the right to assistance of counsel,
the right to trial by jury, and the statutorily mandated right that appointed
counsel have ten days before trial to prepare. Henson, 407 S.W.3d at
768; Elizondo, 541 S.W.3d at 275. Absolute, systemic requirements that cannot
be waived include personal jurisdiction, subject matter jurisdiction, and a penal
statute's compliance with the separation of powers section of the Texas
Constitution. Henson, 407 S.W.3d at 768; Elizondo, 541 S.W.3d at 275.
Defendants must preserve error on alleged violations of most constitutional
rights, even those *586 assured by due process. Elizondo, 541 S.W.3d at 275.
27 Appellant does not cite any authority or offer any analysis indicating
that outrageous government conduct violates a right so fundamental to the
proper functioning of our adjudicatory process that it need not be
preserved. See id. But even if appellant were not required to preserve error, a
deprivation of constitutional due process rights through outrageous
government conduct is a defense which may be raised only in “the rarest and
most outrageous circumstances.” Moreno v. State, 860 S.W.2d 612, 614 n.1
(Tex. App.—Corpus Christi 1993, pet. ref'd) (citing United States v. Ivey, 949
F.2d 759, 769 (5th Cir. 1991)); see also Hubbard v. State, 770 S.W.2d 31, 39
(Tex. App.—Dallas 1989, pet. ref'd) (“Although the boundaries of the
outrageous conduct defense remain poorly defined, the subsequent cases have
clearly limited it to instances of the rarest and most egregious government
misconduct.”).

42

We have already noted that the online solicitation statute is meant to
permit police officers to do just what they did in this case: pose as a minor to
intercept a sexual predator before he meets a minor to engage in sexual
activity. See Moy, 523 S.W.3d at 837. And the Court of Criminal Appeals
similarly recognized the legitimate goal “of prosecuting sexual predators who
attempt to solicit ... a police officer posing as a minor ... for unlawful
activity....” Lo, 424 S.W.3d at 26. The police officers' activity in this case falls
short of that which is necessary to invoke the defense of outrageous
government conduct. See Ivey, 949 F.2d at 769; see also United States v.
Sandlin, 589 F.3d 749, 758 (5th Cir. 2009) (“The standard for proving
outrageous governmental conduct is extremely demanding.”). We overrule
appellant's fourth issue.
Conclusion
We affirm the judgment of the trial court.
All Citations
622 S.W.3d 575
Footnotes
1 We refer to the online persona as “Jennifer” throughout this opinion.
2 Appellant specifically relies on the following evidence in support of his
argument that there was ambiguity surrounding Jennifer's age: Jennifer
initially said she was 18 on Plenty of Fish and declined to reassert that she was
only 16 when appellant commented that she seemed older than 16. But users
on Plenty of Fish were required to be 18, so to be on the platform, Jennifer was
required to say she was 18, and Jennifer told appellant she was 16 after they
started chatting. Even if there is some evidence that appellant was confused
about Jennifer's age, that does not mean that an ordinary, law abiding person
would be confused.

43

Appendix B
Order Refusing Petition for Discretionary Review, Perales v. State,
No. PD-0359-21 (Tex. Crim. App. July 28, 2021).

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711
7/28/2021

COA No. 14-19-00236-CR

PERALES, ROBERT RONALD

Tr. Ct. No. 1511374

PD-0359-21

On this day, the Appellant's petition for discretionary review has been refused.
Deana Williamson, Clerk
THEODORE LEE WOOD
HARRIS COUNTY PUBLIC DEFENDER'S OFFICE
1201 FRANKLIN STREET
HOUSTON, TX 77002
* DELIVERED VIA E-MAIL *

44

